               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Fiscal Year 2011 Financial Testing
       Compliance Oversight Reviews

         Management Advisory Report




                                              January 20, 2012

Report Number FI-MA-12-003
                                                                       January 20, 2012

                                                  Fiscal Year 2011 Financial Testing
                                                     Compliance Oversight Reviews

                                                         Report Number FI-MA-12-003



IMPACT ON:
The U.S. Postal Service’s Financial          site reviews. As a result, we did not
Testing Compliance (FTC) group and           always agree with FTC site results.
business areas related to postal retail
units, plant-verified drop shipments,        WHAT THE OIG RECOMMENDED:
business reply mail, business mail entry     We did not make recommendations in
units, detached mail units, and the          this report but provided our observations
SmartPay and Voyager purchase card           to the IPA firm and Postal Service
programs.                                    management throughout the year. The
                                             IPA firm used the information to support
WHY THE OIG DID THE AUDIT:                   its opinions on FY 2011 Postal Service
To evaluate whether the FTC group            financial statements and controls over
properly conducted and documented            financial reporting.
their examinations of key
Sarbanes-Oxley Act (SOX) of 2002             WHAT MANAGEMENT SAID:
financial controls. This audit was done in   Management agreed with the findings
support of the independent public            and reported they took corrective action
accounting (IPA) firm’s reliance on          throughout the year.
management’s testing and overall audit
opinions on the Postal Service’s             AUDITORS’ COMMENTS:
financial statements and controls over       We consider management’s comments
financial reporting.                         responsive to the findings, and
                                             corrective actions should resolve the
WHAT THE OIG FOUND:                          issues identified in the report.
The FTC group made significant
improvements in their testing of key         Link to review the entire report
SOX financial reporting controls in
fiscal year (FY) 2011. However,
opportunities exist to improve the quality
of conducting tests and documenting
test results. We observed the FTC
group conducting tests at 158 of the
1,023 sampled sites. We found the FTC
group did not identify testing errors in
four site reviews, did not perform steps
in accordance with their program in
three site reviews, and did not
adequately document their work in two
January 20, 2012

MEMORANDUM FOR:                      TIMOTHY F. O’REILLY
                                     VICE PRESIDENT, CONTROLLER




FROM:                                John E. Cihota
                                     Deputy Assistant Inspector General
                                      for Financial Accountability

SUBJECT:                             Management Advisory – Fiscal Year 2011 Financial Testing
                                     Compliance Oversight Reviews
                                     (Report Number FI-MA-12-003)

This report presents the results of our review of the U.S. Postal Service’s Financial
Testing Compliance work at postal retail units (Project Number 11BR001FF000), plant-
verified drop shipments units (Project Number 11BR002FF000), business reply mail
units (Project Number 11BR003FF000), business mail entry units (Project Number
11BR004FF000), detached mail units (Project Number 11BR006FF000), and the
SmartPay (Project Number 11BR007FF000) and Voyager (Project Number
11BR008FF000) purchase card programs. 1

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director, Policy
Formulation and Financial Controls, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Steven R. Phelps
    Corporate Audit and Response Management




1
    The results of these projects were consolidated into this report under Project Number 11BR009FF000.
Fiscal Year 2011 Financial Testing Compliance                                                                       FI-MA-12-003
 Oversight Reviews


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

FTC Testing .................................................................................................................... 2

FTC Audit Program ......................................................................................................... 4

FTC Documentation ........................................................................................................ 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Oversight Reviews with Exceptions .......................................................... 10

Appendix C: Management’s Comments ........................................................................ 11
Fiscal Year 2011 Financial Testing Compliance                                                            FI-MA-12-003
 Oversight Reviews


Introduction

This report presents the results of our fiscal year (FY) 2011 Financial Testing
Compliance (FTC) Oversight Reviews (Project Numbers 11BR001FF000,
11BR002FF000, 11BR003FF000, 11BR004FF000, 11BR006FF000, 11BR007FF000,
and 11BR008FF000). 2 Our overall objective was to evaluate whether the FTC group
properly conducted and documented their examination of key Sarbanes-Oxley Act
(SOX) of 2002 financial reporting controls. This audit addresses financial risks. See
Appendix A for additional information about this audit.

The Postal Accountability and Enhancement Act of 2006 requires the U.S. Postal
Service to comply with Section 404 of SOX. To comply with Section 404 requirements,
the Postal Service must report on the effectiveness of the agency’s internal controls
over financial reporting. It must submit an annual assessment and obtain an opinion
regarding the effectiveness of those controls from its independent public accounting
(IPA) firm and report to the Postal Regulatory Commission (PRC), who monitors and
manages the Postal Service’s compliance with SOX. The Postal Service identified and
documented the key financial internal controls and conducted tests to determine the
effectiveness of those controls. The U.S. Postal Service Office of Inspector General
(OIG) reviewed the Postal Service’s key financial controls and their testing plans for the
controls. We provided evaluations of the controls to be tested and testing plans to the
Postal Service and the IPA firm. The IPA firm maintains overall responsibility for making
conclusions on the general evaluations, testing, and review of the internal controls
tested. We conducted these oversight reviews in support of the IPA firm’s reliance on
Postal Service management’s testing and overall audit opinions on the Postal Service’s
financial statements and internal controls over financial reporting.

Conclusion

The FTC group has made significant improvements in conducting and documenting
their tests of key SOX financial reporting controls in FY 2011. However, we identified
opportunities for the FTC group to improve the quality of conducting tests and
documenting test results. We observed FTC staff conducting tests and reviewed their
documented results at 158 of the 1,023 3 sampled sites. Specifically, the FTC group did
not always identify testing errors, perform steps in accordance with their audit program,
and adequately document their work. As a result, we did not always agree with FTC site
results. We communicated our oversight results to management and the IPA firm via
weekly discussions and quarterly capping spreadsheets. Because the IPA firm used the
information to support its opinions on FY 2011 Postal Service financial statements and
controls over financial reporting, and Postal Service resolved the issues during the year,
we are not making any recommendations. See Appendix B for more details on the sites
where we noted issues.


2
    The results of these projects were consolidated into this report under Project Number 11BR009FF000.
3
    The 1,023 represents the universe from which we pulled our sample. FTC did testing at additional sites.
                                                              1
Fiscal Year 2011 Financial Testing Compliance                                                            FI-MA-12-003
 Oversight Reviews


FTC Testing

FTC analysts did not always identify and report testing errors. During our observations
we noted four testing errors that FTC did not identify. Specifically:

   At one of 15 postal retail units (PRU) visited, unit personnel did not perform bank
    deposit preparation procedures consistent with Postal Service policies. Specifically,
    they failed to include a copy of the check register or a listing of checks with deposits.
    The FTC group did not report this error as an exception. The FTC analyst stated
    that, because two unit employees correctly witnessed the deposit preparation,
    exclusion of the check listing was not a sufficient reason to make the error
    reportable. We disagree with FTC’s assessment that this error was not reportable.
    The FTC test program for this key control includes five bank deposit preparation
    procedures that FTC should confirm the unit is doing when preparing a deposit.
    Confirming inclusion of the check register or a listing of the checks and confirming
    that the preparer and witness, if available, did an independent count are two
    separate components of the control; therefore, FTC should have reported an
    exception.

    In May 2011, the Postal Service’s SOX Program Management Office evaluated key
    internal control processes at PRUs. They determined that unit level testing of the
    bank deposit preparation is not a key control for SOX certification. The Postal
    Service’s accounting service center (ASC) conducts bank deposit reconciliations.
    The ASC does high-level monitoring and automated validations to identify banking
    discrepancies and record any differences. The ASC also notifies units of the
    differences and ensures the unit reconciles the bank deposit with the unit’s daily
    financial report. As a result of management’s evaluation, the control was moved from
    a unit-level test to an ASC-level test. We reviewed management’s evaluation and
    rationalization for moving the bank deposit control test to a higher level control and
    agreed with their assessment.

    Although management has determined that unit bank deposit preparation is no
    longer a key internal control for the purpose of SOX certification, the OIG and the
    IPA firm consider it critical to report all exceptions identified during testing. Without
    this information, management would be unable to assess the true nature of control
    failures and would be severely limited in their ability to take corrective action if
    necessary.

   At one of 45 business mail entry units (BMEU) visited, we noted the unit did not
    record two mailings in the PostalOne! system. 4 The mailings were sitting on the dock
    during the unit’s end-of-day reconciliation procedures. When the FTC analyst
    requested to see the postage statements in PostalOne! for the two mailings, BMEU
    personnel were unable to locate the statements because they had not entered the

4
 The PostalOne! system is a suite of online services that allows the Postal Service to electronically collaborate with
business mail customers, streamlines the mail acceptance and postage payment process, provides for mail
verifications and job tracking, provides access to information, and eliminates paperwork.


                                                           2
Fiscal Year 2011 Financial Testing Compliance                                                            FI-MA-12-003
 Oversight Reviews


    statements into the system. According to management, FTC did not report this
    testing exception because unit personnel manually recorded the two mailings on
    Postal Service Form 8025, Mailer Notification Log for Disqualified Mail, and because
    the postage statements were incorrect. However, the FTC testing program requires
    the FTC analyst to confirm that unit personnel performing the end-of-day
    reconciliations have a process to identify mailings that may be present in the mail
    work area but have not been recorded on the PostalOne! reconciliation report. Also,
    for all statements that are not finalized, the analyst should confirm a reason code
    was entered into PostalOne!. When FTC analysts do not properly conduct internal
    control tests and identify and report all exceptions, management is unable to assess
    the true effectiveness of the control, which severely limits management’s ability to
    take corrective action, if needed.

   At one of 32 detached mail units (DMU) visited, we noted testing issues related to
    mail verification 5 procedures. Specifically, for three mailings the FTC analysts did not
    record all errors related to the unit verifying delivery addresses, tray labels to content
    and/or container labels, container integrity, or container labeling. In addition, one of
    the FTC analysts noted that for one mailing, unit personnel did not compare the
    USPS Qualification Report 6 to the postage statement for completeness. We noted
    this procedure was not performed on two additional mailings. FTC management
    disagreed with our findings, stating that, for the observations noted, the OIG
    appeared to focus on the details of the exception rather than whether the control
    was operating effectively. FTC stated that the OIG’s observation regarding the
    Qualification Report corroborated the observations of the FTC analyst and did not
    change the conclusion by FTC that the controls at the unit were not operating
    effectively. While we agree with FTC that the mail verification procedures were not
    functioning properly at the unit, it is important that FTC analysts document and
    report all exceptions so management can determine the pervasiveness of the control
    failure and determine the level of corrective action necessary to correct the
    exceptions noted.

   At one of 12 units we visited to observe SmartPay transaction testing, we noted the
    FTC analyst accepted a packing slip as supporting documentation for one
    transaction. This purchase was not properly supported by supplier/merchant
    itemized documentation showing the amount paid for the merchandise. The FTC
    group manager explained that the FTC group, in coordination with the process
    owners, initially agreed that a packing slip was adequate support for the SmartPay
    reconciliation process. However, after further discussion, the FTC group agreed with
    the OIG that more specific documentation is required and agreed to modify their
    review program steps. FTC has not updated its SmartPay program but plans to do
    so for FY 2012 testing. FTC stopped their SmartPay testing in Quarter 2, FY 2011

5
  To qualify for Postal Service business mail prices, mailers are required to prepare mailings in accordance with
specific mail preparation standards. Acceptance personnel must perform an initial verification on all submitted
mailings and in-depth verification procedures at performance-based verification (PBV) sites when prompted by
PostalOne! and when errors are identified during the initial verification.
6                               ™
  Report that lists by ZIP Code the number of mailpieces qualifying for each rate by presort level. This report is also
known as the production report.


                                                           3
Fiscal Year 2011 Financial Testing Compliance                                                            FI-MA-12-003
 Oversight Reviews


    because of the large number of control failures and because management was
    remediating those failures. We will review the updated SmartPay program when it is
    provided.

FTC Audit Program

FTC testers did not always follow their program as written. For example:

   At one of 45 BMEUs we visited, the FTC analyst entered the wrong date into their
    sample generator. Specifically, the FTC review program requires the analyst to enter
    a beginning date of January 1, 2011; however, the analyst erroneously entered
    January 11, 2011. As a result, transactions from January 1 through January 10,
    2011, were erroneously excluded from possibly being selected for testing for this
    site. FTC management agreed with our finding.

   At one of 32 DMUs we visited, the FTC analyst did not confirm that DMU personnel
    performed all required mail verifications. Specifically, PostalOne! indicated a
    performance based verification (PBV) was to be performed on a mailing. Neither the
    FTC analyst nor the DMU clerk noticed a PBV was required until the OIG brought it
    to their attention at the end of the review. The DMU clerk then performed the PBV
    verification at the request of the FTC analyst. FTC did not report this as an
    exception. FTC management stated that, because the PBV verification was
    ultimately accomplished, it met the requirements for the test objective. We disagree
    with management’s reason for not reporting this error as an exception. The OIG
    conducts these observations in part to evaluate whether FTC properly conducts and
    documents their examinations. The FTC analyst did not notice that a PBV was
    required until we brought it to their attention and, therefore, did not know there was
    an exception. In addition, it is doubtful that DMU personnel would have performed
    this verification if the OIG had not brought it to FTC’s and the DMU clerk’s attention. 7

   At one of 12 units where we observed FTC testing SmartPay transactions, the FTC
    analyst used the wrong report to generate sample transactions for testing. Although
    we agreed with the analyst’s conclusions on the transactions tested, the analyst did
    not test one transaction that would have been in the sample had he used the correct
    report to generate the sample. The group manager stated it was an error and agreed
    the FTC analyst made an error when generating the sample. When analysts do not
    follow their testing program, there is an increased risk that erroneous transactions
    will not be selected for testing.




7
 Similar issues were identified in the OIG report titled Mail Verification Procedures at Detached Mail Units (Report
Number MS-AR-12-002, dated January 12, 2012). We found that employees performing mail verification procedures
did not detect mailings with insufficient postage or mailings that did not meet Postal Service mailing standards. These
conditions occurred because acceptance employees relied too heavily on mailers when verifying mail and were not
aware of in-depth mail verification procedures.


                                                           4
Fiscal Year 2011 Financial Testing Compliance                                   FI-MA-12-003
 Oversight Reviews


FTC Documentation

FTC testers did not adequately document the work they performed. For example:

   At one of 32 DMUs we visited, testers did not include copies of postage statements
    in their documentation. Although the FTC analyst noted the unit did not perform
    required verification procedures and the postage statement was in error, the FTC
    testing program did not require personnel to include postage statements in their
    automated working papers to support exceptions noted.

    FTC management disagreed with our finding, stating the inclusion of a specific
    postage statement is not applicable to support the exception noted. In addition,
    management explained that the objective for the control test was to ascertain that
    the unit, overall, is performing the required verification procedures to confirm the
    validity of revenue recognition.

    Although we agreed with the FTC analysts’ noted exception, we disagree that
    inclusion of postage statements containing errors is not applicable in supporting
    exceptions. Mail verification procedures are comprised of multiple steps and
    sub-steps. Exceptions within each of the steps and sub-steps should be noted,
    reported, and supported with appropriate documentation. The postage statements in
    question are both applicable and relevant to the exception noted and should either
    be included as part of the supporting documentation or described in sufficient
    enough detail that a third party could obtain the same postage statements and
    review or retest, if appropriate. Furthermore, as discussed previously in this report,
    we believe FTC should report every exception regardless of how many steps or
    sub-steps exist within a particular control. If all exceptions are not noted, reported,
    and adequately supported, management may not be able to properly understand the
    magnitude of the testing failures or to achieve the desired testing result.

   At one of 39 plant-verified drop shipment (PVDS) sites we visited, an employee gave
    an incorrect response to an interview question. However, FTC did not include this
    issue in their documentation. FTC management stated that testers should only
    include information relevant to a finding in their documentation and, because they
    did not consider this issue a finding, the tester did not include the employee’s
    incorrect response in the documentation. However, after further discussions with
    FTC management, they decided to immediately implement a policy requiring
    analysts to include all responses provided during discussions in their documentation.
    FTC management stated they instructed their analysts in November 2011 to include
    all responses provided during discussions in their documentation. Complete and
    accurate documentation of review results provides management with a more
    accurate and complete understanding of the overall internal control environment of a
    unit.




                                                5
Fiscal Year 2011 Financial Testing Compliance                               FI-MA-12-003
 Oversight Reviews


Recommendations

We are not making recommendations in this report because we provided our
observations to the IPA firm and Postal Service management throughout the year.

Management’s Comments

Management agreed with the findings and reported they took corrective actions
throughout the year. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the findings and corrective
actions taken throughout the year should resolve the issues identified in the report.




                                                6
Fiscal Year 2011 Financial Testing Compliance                                                           FI-MA-12-003
 Oversight Reviews


                                 Appendix A: Additional Information

Background

The Postal Accountability and Enhancement Act of 2006 requires the Postal Service to
comply with Section 404 of SOX. To comply with Section 404 requirements, the Postal
Service must report on the effectiveness of the agency’s internal controls over financial
reporting. It must submit an annual assessment to the PRC, who monitors and
manages the Postal Service’s compliance with SOX. The Postal Service must also
obtain an opinion regarding the effectiveness of those controls from its IPA firm.

To meet these requirements, Auditing Standard Number 5 8 allows the IPA firm to use
the work performed by internal employees or contractors working under the direction of
management in its assessment of the effectiveness of internal controls over financial
reporting. The IPA firm requested the OIG to assist in reviewing FY 2011 field testing
conducted by FTC at BMEUs, DMUs, PVDS units, PRUs, and business reply mail
(BRM) units; as well as credit card transactions related to the SmartPay and Voyager
purchases. FTC analysts tested the effectiveness of key field financial controls in
support of SOX requirements and retested controls to ensure that management properly
remediated those that previously failed.

Objective, Scope, and Methodology

Our overall objective was to evaluate whether FTC properly conducted and documented
their examination of key SOX financial reporting controls. We conducted these oversight
reviews in support of the IPA firm’s reliance on management’s testing and overall audit
opinions on the Postal Service’s financial statements and internal controls over financial
reporting.

To accomplish our objective, we judgmentally selected 158 reviews from 1,023 possible
testing sites and observed FTC staff conducting key financial control tests. In addition,
we determined whether FTC provided supporting documentation for the work
performed. Table 1 shows the reviews we observed, by review type and postal quarter.




8
 An Audit of Internal Control Over Financial Reporting That Is Integrated with An Audit of Financial Statements,
Public Company Accounting Oversight Board, dated July 27, 2007.


                                                          7
Fiscal Year 2011 Financial Testing Compliance                                                          FI-MA-12-003
 Oversight Reviews

               Table 1: Number and Type of OIG Oversight Reviews of FTC SOX Testing

                                     OIG Review of FTC Work
                                                                                              OIG           FTC
                  Postal             Postal              Postal             Postal
                                                                                            Oversight       SOX
                 Quarter 1          Quarter 2           Quarter 3          Quarter 4
                                                                                            Reviews        Testing
       9
BMEU                 12                  12                  12                  9             45            211
                                                                10
PRU                   3                  12                   0                  0             15            120
                                            11
BRM                   3                   0                   0                  0              3              60
PVDS                  3                  12                  12                 12             39            246
                       12
DMU                  0                   12                  12                  8             32            286
                       13                                       10
SmartPay             0                   12                   0                  0             12              60
                       14                                       10
Voyager              0                   12                   0                  0             12             100
                                                                                                                 15
Totals               21                  72                  36                 29            158          1,083
Source: OIG

We conducted this review from November 2010 through January 2012 in accordance
with the Council of the Inspectors General on Integrity and Efficiency, Quality Standards
for Inspection and Evaluation. We discussed our observations and conclusions with
management on December 19, 2011, and included their comments where appropriate.

We assessed the reliability of computer-generated data by verifying it to source records.
We determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

We issued one prior report related to the oversight of FTC’s work: Fiscal Year 2010
Quality of Postal Service Financial Testing and Compliance Results (Report
Number FF-MA-11-001, dated January 3, 2011). The report did not include monetary
impact. We stated FTC did not report all exceptions they identified during their reviews,
causing their results to not always be consistent with the OIG’s results.

Further, we were sometimes unable to determine whether the OIG’s and FTC’s results
were consistent because of insufficient FTC supporting documentation. We also noted
other working paper documentation issues, such as FTC not providing all sampling
methodology documentation to the OIG. However, this did not affect our ability to
determine whether FTC’s and the OIG’s results were consistent. Most of the issues we
identified were in reviews FTC conducted early in their testing schedule. Given that FTC
9
  FTC tested key controls at BMEUs using two sampling methods: one sample for the top 60 revenue-generating
units (representing 50 percent of BMEU revenue) and one randomly generated sample for BMEU units with revenue
greater than $1 million. We observed FTC’s BMEU testing at the top 60 units only and these units were tested each
quarter.
10
   FTC stopped testing PRUs in Quarter 3 to remediate control failures and review those controls deemed as key to
ensure the control was being tested at the proper level.
11
   FTC halted BRM, SmartPay, and Voyager testing after Quarter 2 so that control testing failures could be addressed
and remediated. These controls were not remediated or tested for the remainder of the fiscal year.
12
   The OIG did not select any DMUs for observations in Quarter 1 due to a change in DMU controls and sample.
13
   FTC did not test SmartPay purchase cards in Quarter 1 due to limited number of transactions available at the time.
14
   FTC did not test Voyager purchase cards in Quarter 1 due to limited number of transactions available at the time.
15
   FTC tested 60 DMU's in Quarter 1, and the OIG did not test any. Thus, the OIG’s sample universe was 1,023
compared to FTC's 1,083.


                                                         8
Fiscal Year 2011 Financial Testing Compliance                               FI-MA-12-003
 Oversight Reviews


was a newly formed group and analysts were learning new jobs and implementing new
review programs, we expected these results. Throughout the year, we communicated
these issues to management, who agreed with our findings and reiterated that they took
corrective action throughout the year.




                                                9
Fiscal Year 2011 Financial Testing Compliance                                    FI-MA-12-003
 Oversight Reviews


                     Appendix B: Oversight Reviews with Exceptions

            Review Type                    Errors Not       Program         Work
                and                       Identified or    Steps Were     Performed
             Site Name                    Reported by     Not Followed       Not
                                              FTC                        Adequately
                                                                         Documented
PRU
                                                X
PVDS
                                                                             X
BMEU
                                                X
                                                               X
DMU
                                                               X
                                                X                            X
SmartPay



                                                X
Total                                           4              3             2




                                                    10
Fiscal Year 2011 Financial Testing Compliance                  FI-MA-12-003
 Oversight Reviews


                           Appendix C: Management’s Comments




                                                11
Fiscal Year 2011 Financial Testing Compliance        FI-MA-12-003
 Oversight Reviews




                                                12
